                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                Tennessee Secretary of State’s Division of
                               Elections


                     APRIL 23, 2003 THROUGH JUNE 30, 2009




Report No.
E-HP-TN-02-09
April 2010
                                U.S. ELECTION ASSISTANCE COMMISSION
                                        OFFICE OF INSPECTOR GENERAL
                                       1201 New York Ave. NW - Suite 300
                                             Washington, DC 20005

                                                                                     April , 2010

Memorandum


To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Tennessee Secretary of State’s Division of Elections
           (Assignment Number E-HP-TN-02-09)

          We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the Tennessee Secretary of State’s Division of Elections
(SOS-DOE). The contract required that the audit be done in accordance with U.S. generally
accepted government auditing standards. Clifton Gunderson is responsible for the attached
auditor’s report and the conclusions expressed therein.

          In its audit of the SOS-DOE, Clifton Gunderson concluded that, except for the lack of
adequate competition for procurements in some of the counties visited and the state’s failure to
document payroll charges, our audit concluded that the SOS-DOE generally accounted for and
expended HAVA funds in accordance with the HAVA requirements and complied with the
financial management requirements established by the U.S. Election Assistance Commission.
The SOS-DOE also complied with section 251 requirements.

        In its October 27, 2009 responses to the findings and recommendations (Appendix A),
the SOS-DOE agreed that appropriate procedures were not followed in both instances cited, but
did not believe there was any adverse impact on the HAVA program.

        Please provide us with your written response to the recommendation included in this
report by June , 2010. Your response should contain information on actions taken or planned,
including target dates and titles of EAC officials responsible for implementing the
recommendation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

        STATE OF TENNESSEE


   April 23, 2003 Through June 30, 2009



           UNITED STATES

  ELECTION ASSISTANCE COMMISSION





                     a1
                                            TABLE OF CONTENTS




                                                                                                                  PAGE


EXECUTIVE SUMMARY ................................................................................................ 1


BACKGROUND .............................................................................................................. 2


AUDIT OBJECTIVES...................................................................................................... 3


SCOPE AND METHODOLOGY...................................................................................... 3


AUDIT RESULTS............................................................................................................ 4


APPENDICES


Appendix A: Director, Division of Elections, Secretary of State Response To
            Audit Results .......................................................................................... 7


Appendix B: Audit Methodology ................................................................................ 12


Appendix C: Monetary Impact as of June 30, 2009 .................................................. 14

                    U.S. Election Assistance Commission

    Performance Audit of the Administration of Payments Received Under the

               Help America Vote Act by the State of Tennessee


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Tennessee
Secretary of State (SOS) for the period April 23, 2003 through June 30, 2009 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments, and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements For Grants And Cooperative
       Agreements With State And Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the lack of adequate competition for procurements in some of the counties visited
and the state’s failure to document payroll charges, as discussed below, our audit concluded
that SOS generally accounted for and expended HAVA funds in accordance with the
requirements mentioned above for the period from April 23, 2003 through June 30, 2009. The
exceptions needing SOS’s management attention are as follows:

   •	 Four of the seven counties we visited in Tennessee did not use formal solicitation
      procedures to purchase voting equipment during calendar year 2006 as required. The
      four counties negotiated contracts totaling $1,647,097 with vendors authorized by the
      state election office to sell voting equipment in Tennessee.


                                                1

    •	 The state did not complete semi-annual certifications for employees who worked full-
       time or solely on HAVA activities. The state paid a total of $1,492,446 in salaries to full-
       time employees between April 23, 2003 through June 30, 2009.

The SOS officials agreed that the subject counties did not obtain competitive bids in their
purchase of voting equipment, but believe that the prices paid by these counties were equal to
prices paid by counties which engaged in competition. They also agreed that semi-annual
certifications for full-time employees paid by HAVA funds had not been completed, but said that
these individuals had worked only on HAVA related activities and believe the salary charges
should not be disallowed.

We have included in this report as Appendix A the SOS management’s formal response on
October 27, 2009 to the findings and recommendations. Although we have included
management’s written responses to our findings and recommendations, such responses have
not been subjected to the audit procedures and, accordingly, we do not provide any form of
assurance on the appropriateness of the responses or the effectiveness of the corrective actions
described therein.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

    •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the state for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 )(b)(1)].


                                                 2

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Tennessee SOS:

    1.	 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
        HAVA and applicable requirements;

    2.	 Accurately and properly accounted for property purchased with HAVA payments and for
        program income;

    3.	 Met HAVA requirements for Section 251 funds for an election fund and for a matching
        contribution. We did not determine whether the SOS met the requirement for
        maintenance of a base level of state outlays, because the Commission is reviewing its
        guidance on the applicability of the maintenance of a base level of state outlays to
        subgrantees of the SOS.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
        Agreements with State and Local Governments (also known as the “Common Rule”) as
        published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                         1
    3.	 Submit detailed annual financial reports on the use of Title I and Title II payments.

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 23, 2003 through
June 30, 2009 (73-month period) as shown in the following table:
                                  FUNDS RECEIVED
TYPE OF            EAC          PROGRAM    STATE             INTEREST         TOTAL     FUNDS                  DATA

PAYMENT          PAYMENT         INCOME    MATCH              EARNED        AVAILABLE DISBURSED                AS OF


Section 101      $ 6,004,507         $      0 $        0       $ 963,821     $ 6,968,328      $ 1,807,403    6/30/2009
Section 102        2,473,971                0          0          134,659      2,608,630        2,608,630    6/30/2009
Section 251       46,236,130                0  2,500,000        6,366,305     55,102,435       23,185,068    6/30/2009

   Total         $54,714,608         $      0 $2,500,000       $7,464,785    $64,679,393      $27,601,101    6/30/2009



1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.




                                                        3

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the failure of selected counties in following appropriate procurement procedures; the
state’s lack of personnel certifications; and the determination of whether the SOS and its
subgrantees met the requirement for maintenance of a base level of state outlays which were
specifically omitted from our scope of work as explained above, our audit concluded that the
SOS generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above. The SOS has taken action on or is working to resolve the exceptions
described below as set forth in Appendix A:

I.   Procurement

There were four of the seven counties we visited in Tennessee that did not use formal
solicitation procedures to purchase voting equipment during calendar year 2006. The four
counties negotiated contracts totaling $1,647,097 with vendors authorized by the state election
office to sell voting equipment in Tennessee.

The Administrators of Elections at three of the counties told us that they believed their Election
Commission was exempt from procurement regulations which require competitive bidding
procedures. The Purchasing Officer for one of the three counties provided us a letter prepared
by the County Attorney in which the attorney concluded that, “Neither the Election Statutes or
the rules and regulations of the Coordinator require that purchases of electronic voting
machines be competitively bid.” The administrators at the other two counties told us they were
verbally advised by their purchasing offices that the Election Commission was exempt from
county purchasing requirements.

The fourth county election administrator said that she thought the state had awarded a state­
wide contract which established prices for the voting equipment that the county simply had to
choose the equipment which it believed was best suited for its local purposes, and then order
from the state contract.

Tennessee Division of Elections officials told us that the state certified the voting equipment
vendors, but did not award any state-wide contracts. These officials said that they had
negotiated voting equipment prices with each of the four vendors and that they reviewed all
contracts between the counties and the vendors to assure that the counties were not charged
more than the prices negotiated. They also said that under Tennessee state law, the General
Assembly, which includes the SOS, is exempt from state procurement regulations. The state
law does say, however, that to the extent practicable, the General Assembly should follow the
procedures established by the state’s Department of General Services. The grants awarded to
the counties permitted each county to select, from authorized vendors, the voting equipment
which best suited the counties’ needs. The grant agreement also required that procurements


                                                4

subject to the grant shall be made on a competitive basis, including the use of competitive
bidding procedures.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments (Common Rule) located at 41 CFR 105-71.136(a), and Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, Attachments A and B, provide guidance to grantees when utilizing federal funds
to ensure that costs incurred are both reasonable and allowable.

The Tennessee Department of General Services Purchasing Rules in effect at the time these
purchases were made at Chapter 0690-3-1 “Purchase of Materials, Supplies, Equipment and
Services,” Section .01 (5), Exempt State Agencies includes purchasing requirements for certain
agencies named in the ruling.

Further, Chapter 0690-3-1, Section .01 under Methods of Purchasing discusses procedures for
competitive bidding.

The terms of the grant agreement between the State of Tennessee, Department of State,
Division of Elections and the various county Election Commissions describe the requirements
for competitive bidding when using federal funds.

Three of the administrators believed that they were exempt from these requirements. Moreover,
the SOS did not verify that all counties followed applicable procedures in their procurement of
voting equipment before reimbursing the counties for the cost of the equipment.

As a result, the SOS reimbursed four counties for a total of $1,647,097 for expenditures the
counties incurred related to their purchase of voting machine equipment, thus the counties may
not have obtained the best pricing for the voting equipment.

Recommendation:

We recommend that the SOS resolve the questioned costs with the Commission.

SOS’s Response:

The state did not disagree with the finding that four counties did not purchase voting equipment
using competitive bidding procedures. The state believes, however, that the process used to
purchase voting equipment resulted in prices that were the same whether or not competitive
selection procedures were used.

Prior to the award of subgrants to counties for the purchase of voting equipment, the SOS’s
office negotiated a maximum price with each of the four vendors authorized to sell voting
equipment within the state. Documents provided by the SOS show that the prices paid by
counties where competition took place were the same as those paid by the counties which did
not engage in competitive bidding. In one instance a county paid less for voting equipment using
the state’s negotiated price than they had previously paid using their own funds pre-HAVA.

The SOS believes there is ample evidence that the counties could not have obtained a more
favorable pricing structure for the purchase of voting equipment had competitive bids been
obtained and could have resulted in higher prices for smaller counties.



                                               5

II. Personnel Certifications
The State of Tennessee’s Office of the SOS did not complete semi-annual certifications for
employees who worked full-time or solely on HAVA activities.

OMB Circular A-87, in Attachment B Section 8(h) (3) requires that:

   (3) Where employees are expected to work solely on a single Federal award or cost
   objective, charges for their salaries and wages will be supported by periodic certifications
   that the employees worked solely on that program for the period covered by the certification.
   These certifications will be prepared at least semi-annually and will be signed by the
   employee or supervisory official having first hand knowledge of the work performed by the
   employee.

Staff of the SOS told us they were not aware of this requirement.

As a result, the Commission has no assurance that salaries and fringe benefit costs of
$1,492,446 paid to SOS staff using HAVA program funds were incurred for work done solely on
HAVA activities during the audit period.

Recommendation:

We recommend that the Commission resolve with the Tennessee SOS the appropriate
corrective action regarding the lack of periodic certifications.

SOS’s Response:

The State acknowledged that it had not completed the required certifications for employees who
were paid with HAVA funds. The SOS’s office said they were unaware of the requirements of
OMB Circular A-87. They said that at all times since the inception of the program the employees
worked solely on HAVA activities while they have been paid with HAVA funds. They also said
that they have developed a semi-annual certification form and that affected employees have
completed the form for the first half of this year and those certifications will be prepared and
retained by the SOS’s office in the future.


                               ****************************************

We provided a draft of our report to the appropriate individuals of the Tennessee SOS and the
Commission. We considered any comments received prior to finalizing this report.

CG performed its work between August 4, 2009 and August 21, 2009.


a1
Calverton, Maryland

November 5, 2009





                                                  6

                                                                                           Appendix A

              Director, Division of Elections, Secretary of State Response To
                                           Audit Results2

                                         Response to NFR #1

        In implementing the Help America Vote Act (“HAVA”) in Tennessee, the State granted
money to the counties to purchase voting equipment. Allowing the counties to pick the type of
voting equipment to purchase, as long as it was certified by the State, was in keeping with past
practice. In reviewing the actions of the counties in Tennessee with respect to the purchase of
voting equipment, it is important to take into account the end results of the process.

        Our past experience in Tennessee made us believe that the smaller counties would
have the most trouble getting a fair offer in purchasing voting equipment, assuming they could
get some offers, which led us to negotiate a maximum price per machine with each vendor. As
detailed below, the counties in Tennessee that did not technically purchase the equipment
through competitive bid paid the exact same price for the equipment as those counties who did
use the competitive bid process. Additionally, in some instances the county had little choice but
to “sole source” the purchase and were not adversely affected by that action.

        It must also be noted that the State Comptroller’s office gave advice to a county, widely
circulated throughout the State, which indicated the counties were not required to use the
competitive bid process in this particular situation. This advice was relied on by several
counties.

Blount, Madison and Rhea Counties

         Each of these three counties ultimately purchased E-Slate voting equipment
manufactured by Hart InterCivic. While these counties differ significantly in population and
geography, each of the three counties paid exactly the same amount for voting equipment:
$2,500 per voting machine and $3,000 per voting machine for voters with disabilities. Indeed,
this is the same amount per machine that every county in the State that purchased E-Slates
ultimately paid. More importantly, however, is that this is also the exact amount bid by Harp in
                                     3
counties where a bid was requested.

        This consistency in pricing is more than a mere coincidence. It is the result of our having
negotiated a maximum price with each manufacturer prior to the grants being awarded. As
noted above, we did this to protect the small counties who had little or no bargaining power with
the manufacturers. Thus, among the counties that purchased E-Slate machines, the amount
paid in no-bid counties is always equal to the amount paid in the counties that accepted bids.
Additionally, there is no evidence of any bid by Hart in any county in the State where the amount
bid did not equal $2,500 per machine and $3,000 per machine for disability voting. Therefore,
the failure of these three counties to submit to a formal bid process in no way affected the
amount of money paid to purchase the voting equipment.



2 The responses to our NFR (Notice of Findings and Recommendations) were received in writing.

3 This is true in both counties where E-Slate was ultimately selected and those where another machine was

purchased.



                                                    7

Rutherford County

       Although this County opted for the MicroVote Infinity machine, the same logic applies
here as well. Rutherford County paid $3,150 per machine using the HAVA money granted by
the State. Montgomery County, whose population is close to that of Rutherford County, received
bids before purchasing machines. The bid from MicroVote, ultimately accepted by Montgomery
County, was for the exact amount per machine that Rutherford County paid: $3,150 per
machine. Indeed, bids to other counties from MicroVote all had the same per unit price which
was negotiated as a maximum by the State before the counties began purchasing machines.

        More importantly in this case, however, is that Rutherford County already had some
MicroVote Infinity machines. The County had purchased several Infinity machines prior to the
2004 election cycle and, when faced with having to acquire more machines, obviously chose to
build upon what had already been purchased. Thus, the only real option for Rutherford County
was to purchase more Infinity machines. However, the amount paid per machine with HAVA
funds was less than the amount the County had negotiated with MicroVote for the earlier
purchase. The manufacturer almost certainly would not have charged the County less per
machine, especially in a sole source circumstance, had not the State negotiated a better price
as a statewide maximum. As further evidence of this, the printer kits for the Infinity machines
cost Rutherford County $750 apiece when purchased before the implementation of HAVA. The
bid from MicroVote in counties where a bid occurred and the amount paid by Rutherford County
with HAVA funds for the printers was $700.

       It is apparent that the lack of a bid in Rutherford County did not result in any lost dollars.
Indeed, with the State intervening to set a maximum price, the County was able to purchase
equipment at a price lower than it had previously.

Conclusion

       There is some question as to whether purchases made by the Secretary of State’s office
are exempt from the competitive bid process. Two divisions of the Comptroller’s Office, State
Audit and County Audit, independently advised counties that State law did not require
competitive bids in this instance. And at least one of the counties cited in the audit had already
purchased machines and needed to purchase identical machines with the HAVA funds.

        Irrespective of any technical requirement for a competitive bid process, however, is the
ample evidence that the counties could not have obtained a more favorable pricing structure for
the purchase of voting equipment had bids been required. Competitive bids without a maximum
price established by the State almost certainly would have resulted in higher prices for smaller
counties. Indeed, this is exactly what occurred in Rutherford County in the purchase of voting
machines with County money prior to the State negotiating a maximum price. Secondly, the bids
made by the manufacturers in counties where a bid was sought are identical to the prices paid
in the no-bid counties cited in the audit. Finally, while it can be argued that a competitive bid
process should always be used, in the present case it is beyond question that a bid in these
counties would have resulted in the exact same result with the exact same price. There is
simply no evidence that a bid would have reduced the cost of the machines.

        It must be noted that there were four vendors certified by the State to sell voting
equipment to the counties. The fact that all four vendors did sell equipment is a testament to the
efficiency of the process. There was competition among the vendors and the prices negotiated


                                                 8

by the State were fair and reasonable. The finding notes that some county election officials gave
different reasons as to why a bid was not used. The State was diligent, however, in educating
the counties about the existence and amount of a maximum price per machine. We held training
seminars where the topic was covered on several occasions. The discrepancy in answers from
the counties may be based on several factors: 1) A significant amount of time has passed since
the purchasing process; 2) There was considerable turnover among county election officials
between the purchase of the equipment and the audit; and 3) The county election officials were
being told different things by different people (county officials were suggesting a bid process,
while the Comptroller’s Office was insisting no bid was needed).

       In conclusion, it is the State’s position that the pre-negotiated maximums established by
the State obviated the need for a competitive bid process in each county. This is proven by the
uniformity of the bids that were obtained and the prices that were paid by the counties. It is
beyond question that bids in the four counties cited in the audit would not have resulted in any
reduction in price for the purchase of voting equipment.




                                               9

                                                   List of Exhibits4

1.	 Memorandums from State Comptroller’s Office

      -    Art Alexander – Division of County Audit

      -    Bryan Burkin – Division of State Audit


2.	 Invoice and Purchase Order from Rutherford County, Tennessee, detailing previous non-
    HAVA purchase of voting equipment. Note that price is higher than amount actually paid by
    State and Rutherford County in subsequent purchase with HAVA funds.

3.	 Bids received by Montgomery County, Tennessee, showing an amount identical to that paid
    by non-bid counties.

4.	 Bids received by Williamson County, Tennessee, showing an amount identical to that paid
    by non-bid counties.

5.	 Copies of grant agreements detailing amounts granted to counties that purchased Hart E-
    Slate machines.

6.	 Copies of grant agreements detailing amounts granted to counties that purchased
    MicroVote Infinity machines.




4   Clifton Gunderson LLP did not include the exhibits in this report.


                                                           10

                                       Response to NFR #3


The employees paid with the Help America Vote Act grant were hired to and have worked solely
on projects relating to the Help America Vote Act grant during the period reflected in the finding,
although the necessary paperwork was not completed.

Our office was unaware of the semi annual certification requirement set forth in the OMB A-8?
Circular until this year. Brook Thompson, the previous Coordinator of Elections, attended
several meetings and sat on several committees regarding HAVA and was not aware of this
requirement.

After learning of the certification requirement our office developed a semi-annual certification
form and those employees have completed the certification requirement for the first half of this
year (Auditors _              and _           reviewed these certifications). It should be noted,
however, that at all times since the HAVA funds were distributed, the employees paid with
HAVA funds have worked solely on HAVA issues. Although the State failed to file the necessary
paperwork, Tennessee did comply with all relevant laws regarding the expenditure of HAVA
funds at all pertinent times.

Certifications will be submitted and retained by our office in the future.




                                                  11
Text redacted pursuant to Freedom of
Information Act Exemption 6
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to maintain the level
   of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
   meet the five percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.



                                                12

•	 Conducted site visits of selected counties to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Test disbursement of HAVA funds for allowability and compliance
     �   Test cash receipts from SOS to ensure proper cash management
     �   Test procurement of voting equipment for competitive bid process
     �   Ensure compliance with HAVA Act.




                                               13

                                                                           Appendix C



          MONETARY IMPACT AS OF JUNE 30, 2009



                                                Questioned     Additional Funds for
             Description                          Costs              Program
Contracts awarded without formal
competition                                       $1,647,097                     $0

Semi-annual certifications of full-time
employment on HAVA activities not filed           $1,492,446                     $0

Totals                                            $3,139,543                     $0




                                          14

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1201 New York Ave. NW - Suite 300
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
